HHS/OIG, Audit -"Review of Outpatient Cardiac Rehabilitation Services At The William W. Backus Hospital,"(A-01-03-00507)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Outpatient Cardiac Rehabilitation Services At The William W. Backus Hospital," (A-01-03-00507)
November 12, 2003
Complete Text of Report is available in PDF format (357 kb). Copies can also be obtained by contacting
the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether Medicare properly reimbursed the William W. Backus Hospital  (Hospital)
for outpatient cardiac rehabilitation services.  We found that the Hospital relies upon physicians working nearby
in the Hospital and in its emergency department for physician supervision coverage of its outpatient cardiac rehabilitation
program.  However, medical record documentation we examined showed little evidence that a physician personally sees
a patient periodically throughout the program.  In addition, we reviewed a sample of 10 Medicare beneficiaries who
received outpatient cardiac rehabilitation services during calendar year 2001.  We found that medical and billing
records provided by the Hospital in support of three beneficiaries receiving cardiac rehabilitation services totaling $1,307
did not always support the diagnoses used to establish the patients’ eligibility for cardiac rehabilitation.  We
recommended that the Hospital work with the FI to ensure that the Hospital’s outpatient cardiac rehabilitation program
is being conducted in accordance with Medicare coverage and billing requirements.  The Hospital generally agreed with
our recommendations.